           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 CONTROLS OVER “SPECIAL PAYMENT
     AMOUNT” OVERPAYMENTS
    FOR TITLE II BENEFICIARIES

  September 2009   A-09-09-29011




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   September 23, 2009                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls over “Special Payment Amount” Overpayments for Title II Beneficiaries
        (A-09-09-29011)


        OBJECTIVE

        Our objective was to determine whether the Social Security Administration (SSA)
        properly identified and controlled overpayments recorded as “special payment amounts”
        (SPA) on the Master Beneficiary Record (MBR).

        BACKGROUND
        An overpayment is the total amount an individual received for any period that exceeds
        the total amount that should have been paid. Once a determination of an overpayment
        is made, the overpaid amount is a debt owed to the Government.1 In some instances,
        an overpayment may be temporarily recorded as an SPA on the MBR until the amount
        has been validated.

        If the SPA overpayment is a legally defined overpayment,2 it should be removed
        from the MBR and recorded in SSA’s Recovery of Overpayments, Accounting and
        Reporting (ROAR) System, which controls the recovery and collection activity of all
        Title II overpayments until they are repaid or otherwise resolved.3 SSA’s automated
        system generates an alert whenever a SPA overpayment is established on the MBR.
        SSA employees must manually process these alerts to establish and resolve the
        overpayments. SSA also conducts an annual clean-up project as an additional control
        to ensure SPA overpayments are removed from the MBR and established in ROAR.



        1
            SSA, Program Operations Manual System (POMS), GN 02201.001.
        2
          Legally defined overpayments are overpayments attributable to situations such as incorrect month of
        entitlement, incorrect computations, multiple entitlements, etc. See POMS, SM 00510.565 C.3.a.
        3
            SSA, POMS, SM 00610.001.
Page 2 - The Commissioner

A prior Office of the Inspector General (OIG) audit4 identified about $11.2 million in SPA
overpayments that had not been recorded in ROAR. In addition, the audit identified
approximately $26.3 million in erroneous SPA overpayments recorded on the MBR.

We estimate that, as of March 2008, there were approximately 25,480 Title II
beneficiaries who were in suspended or terminated pay status between January 1997
and December 2006.5 According to the MBR, these beneficiaries had $144.5 million in
SPA overpayments.

RESULTS OF REVIEW
SSA needs to improve its controls over SPA overpayments to ensure recovery actions
are initiated timely and overpayments are controlled and tracked until recovered or
otherwise resolved. Specifically, we found that SSA did not always properly establish
valid overpayments in ROAR or remove erroneous SPA overpayments from the MBR.
This occurred, in part, because SSA employees did not always review the SPA
overpayments or resolve the SPA overpayment alerts. Based on a random sample
of 200 beneficiaries, we estimate that

   11,840 beneficiaries received $65.3 million in overpayments for which SSA had not
    initiated or pursued recovery actions, and

   4,840 beneficiaries had $27.5 million in erroneous SPA overpayments that should
    have been removed from the MBR (see Appendix C).

We also found SSA’s annual clean-up project was generally effective in identifying
unresolved SPA overpayments. However, SSA could improve its annual clean-up
project by identifying and selecting additional SPA overpayments for review.

SPA OVERPAYMENTS FOR TITLE II BENEFICIARIES

Based on a random sample of 200 beneficiaries, we found SSA had not (1) established
$512,293 in valid overpayments in ROAR for 93 beneficiaries or (2) removed
$216,137 in erroneous SPA overpayments from the MBR for 38 beneficiaries. We
also found that $302,354 in overpayments was properly recovered or resolved for
50 beneficiaries, and $64,877 in SPA overpayments should remain on the MBR for
19 beneficiaries. Our sample results are summarized below.



4
 The Social Security Administration’s Controls Over Master Beneficiary Record Special Payment
Amounts (A-01-96-62002), September 1998.
5
  The MBR is divided into 20 segments, each segment representing 5 percent of all records. We
identified a population 1,274 records from 1 segment of the MBR. As a result, we estimate that
25,480 beneficiaries (1,274 x 20) with SPA overpayments of $500 or more were in suspended or
terminated pay status between January 1997 and December 2006.
Page 3 - The Commissioner



              SPA Overpayments for Title II Beneficiaries
                   Based on a Random Sample of 200 Beneficiaries
                  19 Overpayments                       93 Overpayments Not
                  Should Remain on                      Established in ROAR
                     MBR (9.5%)                                (46.5%)




                50 Overpayments                            38 Erroneous
              Properly Recovered or                      Overpayments Not
                Resolved (25.0%)                         Removed from MBR
                                                              (19.0%)




Unresolved SPA Overpayments

For 93 (46.5 percent) of the 200 beneficiaries in our sample, SSA had not established
$512,293 in valid overpayments in ROAR. These overpayments were attributable to
SSA retroactively suspending or terminating benefits when it learned of events that
affected the beneficiaries’ entitlement to benefits. However, SSA did not review the
SPA overpayment amounts to determine their potential for collection. Had SSA
reviewed these amounts, the overpayments could have been validated, established,
and possibly recovered.

SPA overpayments generally result from the retroactive suspension or termination
of benefits. Additionally, SPA overpayments are not controlled by ROAR. Therefore,
manual intervention is required to review the SPA overpayments and determine whether
they are valid or erroneous. Valid SPA overpayments are removed from the MBR and
established in ROAR for control and tracking until recovered or otherwise resolved.

The reasons for retroactive suspension or termination of benefits include (1) retired
beneficiaries’ work and earnings, (2) disabled beneficiaries with substantial gainful
activity, (3) beneficiaries who were no longer disabled, (4) individuals who were not
U.S. citizens or naturalized, and (5) beneficiaries who were incarcerated. In these
instances, SSA will usually establish overpayments in ROAR to initiate or pursue
recovery actions.
Page 4 - The Commissioner

For example, in August 2005, SSA retroactively suspended payments to a beneficiary
because of substantial gainful activity and terminated benefits because of disability
cessation. Upon termination, we determined SSA had overpaid the beneficiary
$39,716. SSA established a $6,589 overpayment resulting from disability cessation but
did not include the $33,127 overpayment resulting from substantial gainful activity. As
of April 2009, the SPA overpayment of $33,127 still remained on the MBR.

Erroneous SPA Overpayments

For 38 (19 percent) of the 200 beneficiaries in our sample, SSA had not removed
$216,137 in erroneous SPA overpayments from the MBR. We found SSA had properly
reviewed, recovered, or resolved the overpayments but did not always delete the SPA
overpayments from the MBR. Although the erroneous SPA overpayments did not affect
the amount of valid overpayments, they should have been removed to ensure SSA’s
payment records were accurate and up-to-date. Removing erroneous overpayments on
the MBR prevents withholding of these amounts from future benefits that may be
payable to the beneficiaries.

In 28 of the cases, the SPA overpayments should have been removed from the MBR
because SSA had taken appropriate actions to establish, recover, or resolve the
overpayments. In the remaining 10 cases, the SPA overpayments resulted from
processing errors and were not overpayments at all.

Timeliness in Resolving SPA Overpayment Alerts

SSA needs to improve controls to ensure SPA overpayments are properly and timely
reviewed, recovered, and resolved. SSA’s automated system generates an initial
alert when a SPA overpayment is established on the MBR. These alerts require that
SSA employees manually review the overpayment to determine whether further
development is necessary. For 131 (65.5 percent) of the 200 beneficiaries in our
sample,6 SSA had not properly reviewed or resolved the SPA overpayments when the
alerts were generated. As a result, we identified $728,430 in overpayments for which
corrective action had not been taken.

Of the 131 SPA overpayments questioned by our audit, we found the average
age of the SPA overpayments was about 3 years. Of these, we determined that
27 (20.6 percent) of the 131 SPA overpayments were over 4 years old. As depicted
in the chart below, some of the overpayment alerts had not been reviewed or resolved
as far back as October 1999.




6
  Includes 93 valid overpayments that were not established in ROAR and 38 erroneous SPA
overpayments that were not removed from the MBR.
Page 5 - The Commissioner




                                   Aging of Unresolved SPA Overpayments
                              45
     Number of Overpayments




                              40
                              35
                              30
                              25
                              20
                              15
                              10
                              5
                              0
                                   2008   2007   2006   2005   2004   2003     2002   2001   2000   1999

                                                               Calendar Year




ANNUAL SPA CLEAN-UP PROJECT COULD BE IMPROVED

SSA conducts an annual SPA clean-up project to select Title II beneficiaries with
unresolved SPA overpayments on the MBR. This annual project identifies and
generates a follow-up alert that requires that SSA employees determine whether the
SPA overpayment has been resolved, and if necessary, initiate overpayment recovery
actions.

We found SSA could improve its annual clean-up project by identifying and selecting
additional SPA overpayments on the MBR for review. Specifically, the selection criteria
excluded SPA overpayments for dually and technically entitled beneficiaries whose
benefits had been suspended. Of the 131 SPA overpayments questioned by our audit,
we found 20 (15.3 percent), totaling $120,833, were neither included in SSA’s annual
clean-up project nor identified and otherwise resolved by SSA employees. These
overpayments should have been established in ROAR or removed from the MBR. The
remaining 111 SPA overpayments were identified by SSA’s annual clean-up project but
had not been timely resolved.
Page 6 - The Commissioner

Dually and technically entitled beneficiaries are eligible for benefits on more than one
earnings record. For example, individuals may be entitled to retirement benefits on their
own earnings record and also entitled to spousal benefits on another record. However,
the total benefit amount may not exceed the highest single benefit to which that
individual is entitled. For dual entitlement, the combined benefits are usually issued as
one payment under the beneficiary’s own earnings record.7 For technical entitlement,
the beneficiary is entitled on more than one record but is only eligible to receive a
payment on one of the records.8

For example, in June 2007, SSA retroactively suspended payments for a beneficiary
back to December 2006 because of dual entitlement. We determined that $1,338 of the
$1,818 SPA overpayment was valid and should have been established in ROAR.9
However, as of April 2009, SSA had not reviewed or resolved the SPA overpayment.
If SSA’s annual clean-up project selected dually entitled beneficiaries, the overpayment
would have been identified and possibly established and resolved.10

CONCLUSION AND RECOMMENDATIONS

We found SSA did not always establish valid overpayments in ROAR or remove
erroneous SPA overpayments from the MBR. Based on our review, we estimate that
(1) 11,840 beneficiaries received $65.3 million in overpayments for which SSA had
not initiated or pursued recovery actions and (2) 4,840 beneficiaries had $27.5 million
in erroneous SPA overpayments that should have been removed from the MBR (see
Appendix C). In addition, we found SSA could improve its annual clean-up project by
identifying and selecting additional SPA overpayments on the MBR for review.




7
     SSA, POMS, RS 00615.020, GN 02401.025 and SM 00823.001.
8
     SSA, POMS, SM 00820.300 A.
9
  The $480 difference between the $1,818 SPA overpayment and $1,338 valid overpayment occurred
because SSA incorrectly awarded retirement benefits 4 months before full retirement age.
10
   SSA’s annual clean-up project selects SPA overpayments that are at least 2 years old. At the time of
our audit, the clean-up project would not have selected this SPA overpayment because it was less than
2 years old. More importantly, the clean-up project is not currently designed to select dually entitled
beneficiaries with SPA overpayments, regardless of their age.
Page 7 - The Commissioner

We encourage SSA to improve its controls over SPA overpayments to ensure recovery
actions are initiated and overpayments are controlled and tracked until recovered or
otherwise resolved. The recovery of overpayments is hampered if timely actions are not
initiated when the initial SPA overpayment alerts are generated. Therefore, we
recommend that SSA:

1. Establish overpayments in ROAR and initiate or pursue recovery actions for the
   93 beneficiaries identified by our audit.

2. Remove erroneous SPA overpayments from the MBR for the 38 beneficiaries
   identified by our audit.

3. Improve compliance to ensure SPA overpayment alerts are reviewed and resolved
   in a timely manner.

4. Modify the selection criteria for the annual SPA clean-up project to include dually
   and technically entitled beneficiaries whose benefits have been suspended.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.



                                             S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms

MBR    Master Beneficiary Record
OIG    Office of the Inspector General
POMS   Program Operations Manual System
ROAR   Recovery of Overpayments, Accounting and Reporting
SPA    Special Payment Amount
SSA    Social Security Administration
                                                                      Appendix B

Scope and Methodology
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR). From this extract, we identified a population
of 1,274 Title II beneficiaries with a “special payment amount” (SPA) overpayment of
$500 or more, and a date of suspension or termination between January 1997 and
December 2006. We selected a random sample of 200 beneficiaries from the
population for review.

To accomplish our objective, we

   reviewed SSA’s Program Operations Manual System and other policy
    memorandums;

   interviewed SSA employees from the Western Program Service Center and the
    Offices of Financial Policy and Operations, Public Services and Operations Support,
    and Retirement and Survivors Insurance Systems;

   reviewed queries from SSA’s MBR and Payment History Update System for each
    sample item; and

   obtained and reviewed electronic folders, including the Paperless System and Online
    Retrieval System, to determine the nature and extent of actions taken by SSA.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed our audit in Richmond, California, between October 2008 and April 2009.
The entity reviewed was the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) of Title II beneficiaries with a “special payment
amount” (SPA) overpayment of $100 or more. From this extract, we identified a
population of 1,274 Title II beneficiaries with a SPA overpayment of $500 or more
and a date of suspension or termination between January 1997 and December 2006.
From this population, we selected a random sample of 200 beneficiaries to determine
whether SSA properly identified and controlled SPA overpayments on the MBR.

Based on a random sample of 200 beneficiaries, we found SSA had not (1) established
$512,293 in valid overpayments in the Recovery of Overpayments, Accounting and
Reporting System for 93 beneficiaries and (2) removed $216,137 in erroneous SPA
overpayments from the MBR for 38 beneficiaries. Projecting these results to all 20 MBR
segments, we estimate that (1) 11,840 beneficiaries received $65.3 million
in overpayments for which SSA had not initiated or pursued recovery actions and
(2) 4,840 beneficiaries had $27.5 million in erroneous SPA overpayments that should
have been removed from the MBR.1 The following tables provide the details of our
sample results and statistical projections.

                  Table 1: Population and Sample Size                                 Number
    Population Size (Data extract from 1 segment)                                          1,274
    Sample Size                                                                              200
    Estimate for Entire MBR2                                                              25,480

                Table 2: Overpayments                           Number                Amount
    Sample Results                                                         93            $512,293
    Point Estimate                                                        592          $3,263,306
    Projection - Lower Limit                                              523          $2,567,141
    Projection - Upper Limit                                              663          $3,959,470
    Estimate for Entire MBR3                                           11,840         $65,266,120
Note: All projections are at the 90-percent confidence level.




1
  The MBR is divided into 20 segments, each segment representing 5 percent of all records. We
identified a population 1,274 records from 1 segment of the MBR. As a result, we estimate that
25,480 beneficiaries (1,274 x 20) with SPA overpayments of $500 or more were in suspended or
terminated pay status between January 1997 and December 2006.
2
    Represents the population multiplied by 20 segments.
3
    Represents the point estimate multiplied by 20 segments.


                                                   C-1
            Table 3: Erroneous Payments                         Number      Amount
    Sample Results                                                     38      $216,137
    Point Estimate                                                    242    $1,376,792
    Projection - Lower Limit                                          190     $853,552
    Projection - Upper Limit                                          302    $1,900,031
    Estimate for Entire MBR4                                        4,840   $27,535,840
Note: All projections are at the 90-percent confidence level.




4
    Id.




                                                   C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      September 8, 2009                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Special Payment Amount Overpayments
           for Title II Beneficiaries” (A-09-09-29011)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
“SPECIAL PAYMENT AMOUNT OVERPAYMENTS FOR TITLE II BENEFICIARIES”
(A-09-09-29011)


Below please find our comments to the draft report findings and recommendations.

Recommendation 1
Establish overpayments in Recovery of Overpayments, Accounting, and Reporting
system and initiate or pursue recovery actions for the 93 beneficiaries identified by our
audit.

Comment
We agree. We will take action on these cases by December 2009.

Recommendation 2
Remove erroneous special payment amounts (SPA) overpayments from the master
beneficiary record for the 38 beneficiaries identified by our audit.

Comment
We agree. We will take action on these cases by December 2009.

Recommendation 3
Improve controls to ensure SPA overpayment alerts are reviewed and resolved in a timely
manner.

Comment
We agree. We will investigate the feasibility of creating a follow-up alert by
November 2009. If the creation of a follow-up alert is not feasible, we will issue a
reminder to staff to process SPA overpayment alerts.

The findings did not identify a system control issue. Therefore, we request that you
modify the recommendation to state, “Improve compliance…” instead of “Improve
controls…”

Recommendation 4
Modify the selection criteria for the annual SPA clean-up project to include dually
and technically entitled beneficiaries whose benefits have been suspended.

Comment
We agree. We will identify additional selection criteria for use during the SPA clean-up
project and will modify the selection criteria as resources allow.




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Regina Finley, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29011.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
